                                                        National Railroad Passenger Corporation
                                                        Office of Inspector General
                                                        10 G Street N.E.
	                                                      Washington, DC 20002




           CUSTOMER SERVICE REPRESENTATIVE VIOLATED ETHICS POLICY
                               JUNE 26, 2013
                              CASE # IL-13-0074

Office of Investigations looked into allegations regarding a Customer Service Representative
who allowed his girlfriend to ride the Amtrak train for free. The girlfriend provided OI with a
photograph and text messages showing the employee was engaged in sexually explicit actions
while at his Amtrak work station. The employee was terminated.
